HHS/OIG-Audit--"Review of Costs Claimed by Pro-Med Home Health, Inc., (A-04-95-01106)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Costs Claimed by Pro-Med Home Health, Inc.," (A-04-95-01106)
March 22, 1996
Complete
Text of Report is available in PDF format (830 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that 40 percent ($1.2 million) of home health claims submitted by Pro-Med Home Health,
Inc. during the fiscal year ended December 31, 1993 did not meet Medicare guidelines in that: (1) 25 percent were for home
health visits made to individuals who were not homebound; (2) 8 percent were for visits which in the opinion of medical
experts were not reasonable or necessary; (3) 5 percent were for visits not made; and (4) 2 percent were for visits which
physicians denied authorizing. In addition to recovering overpayments, we recommended that the Health Care Financing Administration
(HCFA) require the fiscal intermediary (FI) to instruct Pro-Med on its responsibilities to monitor its subcontractors for
compliance with Medicare guidelines, and monitor the FI and Pro-Med to ensure that corrective actions are effectively implemented.
The HCFA agreed with our recommendations